            Office of Inspector General




September 24, 2004

THOMAS A. GUTTADAURO
MANAGER, NEW YORK INTERNATIONAL SERVICE CENTER

SUBJECT:          Audit Report - Efficiency of the New York International Service Center
                  (Report Number NO-AR-04-009)

This report presents the results of our audit of the New York International Service
Center (ISC) located in the New York Metro Area (Project Number 04YG008NO000).
Our objective was to determine the efficiency of work performed by the New York ISC.
The Manager, International Network Operations, requested this audit, which we
conducted jointly with New York Metro Area mail processing managers and in
cooperation with the Manager, New York ISC.

The New York ISC could improve the efficiency of processing international and military
mail by reducing employee workhours by 326,000 and increasing supervisory
workhours by 6,000, for a net reduction of 320,000 workhours.1 This 320,000-workhour
reduction could produce a cost avoidance of more than $98 million based on labor
savings over ten years. These funds represent funds put to better use and will be
reported as such in the September 2004 Semiannual Report to Congress.

We made two recommendations to Postal Service management addressing these
issues. Management agreed to our finding, recommendations, and monetary impact
and has initiatives in progress or planned addressing the issues in this report.
Management’s comments and our evaluation of these comments are included in this
report.

The Office of Inspector General (OIG) considers recommendation 1 significant, and
therefore requires OIG concurrence before closure. Consequently, the OIG requests
written confirmation when corrective actions are completed. This recommendation
should not be closed in the follow-up tracking system until the OIG provides written
confirmation that the recommendation can be closed.




1
 This workhour reduction is based on management’s aggressive plan of achieving 90 percent target productivity goal
(Breakthrough Productivity Index).

    1735 N Lynn St.
    Arlington, VA 22209-2020
    (703) 248-2100
    Fax: (703) 248-2256
We appreciate the cooperation and courtesies provided by your staff during the audit.
If you have any questions or need additional information please contact Robert J. Batta,
Director, Network Operations - Processing, or me at (703) 248-2300.

/s/ Mary W. Demory

Mary W. Demory
Deputy Assistant Inspector General
 for Operations and Human Capital

Attachment

cc: John A. Rapp
    David L. Solomon
    Mary Anne Gibbons
    Paul E. Vogel
    Michael J. Nappi
    Steven J. Forte
    Steven R. Phelps
Efficiency of the New York International                              NO-AR-04-009
 Service Center



                                     TABLE OF CONTENTS

 Executive Summary                                                              i

 Part I

 Introduction                                                                  1

      Background                                                               1
      Objective, Scope, and Methodology                                        3
      Prior Audit Coverage                                                     4

 Part II

 Audit Results                                                                 5

      Assessment of Resources at the New York International Service            5
       Center
      Recommendations                                                         12
      Management’s Comments                                                   12
      Evaluation of Management’s Comments                                     12

 Appendix A. Prior Audit Coverage                                             13

 Appendix B. Targeted Productivity Levels Achieved by Each Type of            16
             Mail Processing Operation and Potential Hour Savings
             Based on Percentage of Achievement to Target FYs 2002
             and 2003

 Appendix C. FY 2003 First Handling Pieces per Total Workhours                17

 Appendix D. Supervisor Hours as a Percentage of Total Workhours              18
             FY 2003

 Appendix E. Volume per Hour of Operation Based on Mail Arrival and           19
             Workhours for the Registry and Express Operations

 Appendix F. Cost Avoidance at the New York International Service             20
             Center (Funds Put to Better Use)

 Appendix G. Management’s Comments                                            21
Efficiency of the New York International                                    NO-AR-04- 009
 Service Center




                       LIST OF FIGURES AND ILLUSTRATIONS

 Figure 1. International Mail Revenue                                                 2

 Figure 2. International Mail Volume                                                  2

 Figure 3. Cumulative First Handling Pieces in FYs 2002 and 2003                      3

 Figure 4. Cumulative Workhours in FYs 2002 and 2003                                  3

 Figure 5. Overtime Used at the New York ISC in FY 2003                               6

 Table 1. New York ISC Data on First Handling Pieces per Workhour                     7
           Versus All Other ISCs

 Illustration 1. Mail sacks backed up at sack sorter                                  8

 Illustration 2. Letter trays backed up at a receiving station                        8

 Illustration 3. Sack sorter backed up                                                9

 Illustration 4. Airline cargo containers waiting to be unloaded                      9

 Illustration 5. Outbound mail backed up on slides                                   10

 Illustration 6. Mail handlers sitting while mail waits on a slide                   10

 Illustration 7. Inbound tray line with a letter tray jammed into rollers            11
Efficiency of the New York                                                                         NO-AR-04-009
 International Service Center


                                       EXECUTIVE SUMMARY
    Introduction                  The Office of Inspector General assessed mail processing
                                  operations at the New York International Service Center
                                  (ISC) located in the New York Metro Area. Our objective
                                  was to determine the efficiency of work performed by the
                                  ISC. The Manager, International Network Operations,
                                  requested this audit, which we conducted jointly with
                                  New York Metro Area mail processing managers and in
                                  cooperation with the Manager, New York ISC.

    Results in Brief              The New York ISC could improve the efficiency of processing
                                  international and military mail by reducing employee
                                  workhours by 326,000 and increasing supervisory workhours
                                  by 6,000, for a net reduction of 320,000 workhours.2 This
                                  320,000-workhour reduction could produce a cost avoidance
                                  of more than $98 million based on labor savings over ten
                                  years. These funds represent funds put to better use and will
                                  be reported as such in the September 2004 Semiannual
                                  Report to Congress.

                                  Postal Service management had addressed operational
                                  efficiency by adjusting their actual workhours to match the
                                  number of workhours planned for in the budget process. As
                                  a result, they reduced fiscal year (FY) 2003 workhours by
                                  15 percent from FY 2001 levels. However, Postal Service
                                  management had not evaluated operational efficiency by
                                  benchmarking operations against other ISCs, evaluating
                                  machine utilization, or analyzing trends.

                                  Postal Service management agreed to reduce mail processing
                                  workhours by 320,000 at the New York ISC by the end of
                                  FY 2009.

    Summary of                    We recommended that the Manager, New York ISC, reduce
    Recommendations               mail processing by 320,000 workhours. Workhour reductions
                                  are based on FY 2003 workhour usage, with reductions to
                                  begin in FY 2004 and be completed by the end of FY 2009.
                                  We recommended management periodically evaluate
                                  operating efficiency and staffing at the New York ISC to
                                  determine whether further workhour adjustments are
                                  necessary based on workload.

2
 This workhour reduction is based on management’s aggressive plan of achieving 90 percent target productivity goal
(Breakthrough Productivity Index).




                                                        i
Efficiency of the New York                                                        NO-AR-04-009
 International Service Center




 Summary of                     Management agreed with our finding, recommendations, and
 Management’s                   associated monetary impact. They planned to reduce
 Comments                       320,000 mail processing workhours by the end of FY 2009,
                                and periodically evaluate operational efficiency and staffing.
                                Management’s comments, in their entirety, are included in
                                Appendix G of this report.

 Overall Evaluation of          Management’s comments reflect that the Manager, New York
 Management’s                   ISC, has been very proactive and aggressive with
 Comments                       implementing the recommendations. The New York ISC
                                management has a plan to meet 90 percent of its
                                Breakthrough Productivity Index goal. They are also
                                committed to continually improving their operations as made
                                evident by their participation and cooperation with the joint
                                effort process. Management’s actions, taken or planned,
                                should correct the issues identified in the finding.




                                                 ii
Efficiency of the New York                                                                                 NO-AR-04-009
 International Service Center


                                               INTRODUCTION
    Background                         The Postal Service established International Service
                                       Centers (ISCs) in 1996 to improve competition in the
                                       growing international mail market. Before 1996,
                                       Exchange Offices3 processed international and military
                                       mail.4 These Exchange Offices were collocated in
                                       processing and distribution centers where domestic mail
                                       processing took precedence over international mail.

                                       On August 5, 1997, the Board of Governors approved
                                       $146.9 million in capital investments funding and
                                       $129.7 million (undiscounted) for lease expense funding
                                       to establish a network dedicated to processing
                                       international and military mail. The international/military
                                       network was established to improve international/military
                                       mail service with a dedicated workforce and single-focus
                                       management. The Postal Service hoped that this
                                       approach would improve service and provide the structure
                                       needed to support new products and increase revenue.
                                       In response to this marketing and sales plan, ISCs were
                                       established in Miami, Florida; Chicago, Illinois;
                                       Los Angeles, California; Dallas, Texas; San Francisco and
                                       Oakland, California; New York, New York; and Dulles,
                                       Virginia.5

                                       However, the marketing plan did not increase volume or
                                       revenue as projected. The volume of international mail
                                       declined by 11 percent and revenue declined by 2 percent
                                       from fiscal years (FYs) 1996 to 2003. The revenue and
                                       volume trends are shown in Figures 1 and 2 on the next
                                       page.




3
  An International Exchange Office or International Mail Service Center is a post office or airport mail center or facility
authorized to exchange international mail and military mail, both air and surface, with another country.
4
  International mail is mail originating in one country and arriving in another. It is classified as Postal Union Mail
(letters, cards, and other articles), postal parcels, and Express Mail International Service. Military mail is mail
addressed to or mailed from a military unit located outside the continental United States or between two military units
overseas.
5
  The planned Dulles, Virginia, ISC was completed in October 1999 and is currently processing Priority Mail. This
center does not serve as an ISC.




                                                          1
Efficiency of the New York                                                                                      NO-AR-04-009
 International Service Center


                                                                           FIGURE 1

                                                                International Mail Revenue
                                      1.75
                Dollars in Billions

                                        1.7
                                      1.65
                                        1.6
                                      1.55
                                        1.5
                                                1996    1997      1998          1999      2000    2001   2002     2003
                                                                                 Fiscal Years



                                                                          FIGURE 2

                                                                International Mail Volume
       Number of Pieces (000)




                                      1,150.0
                                      1,100.0
                                      1,050.0
                                      1,000.0
                                        950.0
                                        900.0
                                        850.0
                                        800.0
                                                 1996    1997      1998          1999      2000   2001   2002      2003
                                                                                  Fiscal Years



                                                           In March 1996, Coopers & Lybrand L.L.P. conducted a
                                                           study on behalf of the Postal Service. The study projected
                                                           international mail revenue at $6.1 billion in FY 2000 and
                                                           $11.4 billion by FY 2005. However, actual revenue in
                                                           FY 2000 was $1.66 billion and represented a shortfall of
                                                           73 percent of the projected amount. It is unlikely that the
                                                           Postal Service will achieve the FY 2005 projection of
                                                           $11.4 billion, based on FY 2003 revenue of $1.6 billion.

                                                           The New York ISC is the largest facility in the international
                                                           network. In 2003, the New York ISC processed nearly
                                                           515 million mailpieces or 47 percent of the total international
                                                           mail volume. In addition, the New York ISC used
                                                           approximately 2.8 million hours or 52 percent of the total
                                                           international workhours to process this mail. Figures 3
                                                           and 4 on the next page, “Cumulative First Handling Pieces
                                                           FY 2002 Through 2003” and “Workhours FY 2002 Through




                                                                            2
Efficiency of the New York                                                                      NO-AR-04-009
 International Service Center


                                    2003,” show the percentage of total volume and hours used
                                    at each of the ISCs.

                   FIGURE 3                                                  FIGURE 4
           Cumulative First Handling                                   Cumulative Workhours in
          Pieces in FYs 2002 and 2003                                    FYs 2002 and 2003

                  10%                                                           8%
                                                                       12%
          14%
                                           47%                       5%
                                                                                                    52%
          8%
                                                                    14%
             12%
                         9%                                                  9%

                                                                    NEW YORK                 LOS ANGELES
         NEW YORK                 LOS ANGELES
                                                                    SAN FRANCISCO            DALLAS
         SAN FRANCISCO            DALLAS
                                                                    CHICAGO                  MIAMI
         CHICAGO                  MIAMI
                                                             FY 2002 workhours - 5,511,291
   FY 2002 First Handling Pieces total - 1,115,942,000       FY 2003 workhours - 5,477,378
   FY 2003 First Handling Pieces total - 1,075,591,000



   Objective, Scope,                The audit assessed the efficiency of work performed by the
   and Methodology                  New York ISC. The Manager, International Network
                                    Operations, requested this audit, which we conducted jointly
                                    with New York Metro Area mail processing managers and in
                                    cooperation with the Manager, New York ISC.

                                    To assess the efficiency of the New York ISC, we observed
                                    processing operations, analyzed mail volume and
                                    workhours, interviewed Postal Service employees, and
                                    evaluated machine utilization. In addition, we benchmarked
                                    the mail volumes per workhour at the New York ISC with
                                    other ISCs.

                                    We relied on Postal Service operational systems, including
                                    the National Workhour Reporting System, the Management
                                    Operating Data System, the Web Enterprise Information
                                    System, and the Web End-of-Run System to analyze
                                    mailings and workhours. We did not test the validity of
                                    controls over these systems. However, we checked the




                                                         3
Efficiency of the New York                                                      NO-AR-04-009
 International Service Center



                                accuracy of data by confirming our analysis and results with
                                Postal Service managers.

                                This audit was conducted from April through
                                September 2004 in accordance with generally accepted
                                government auditing standards and included such tests
                                of internal controls as were considered necessary under
                                the circumstances. We discussed our observations and
                                conclusions with appropriate management officials and
                                included their comments, where appropriate.

   Prior Audit Coverage         We have issued two audit reports on workhour efficiency at
                                ISCs and seven reports on efficiency at business mail entry
                                units. (See Appendix A for details.)




                                             4
Efficiency of the New York                                                                                            NO-AR-04-009
 International Service Center



                                                      AUDIT RESULTS
    Assessment of                           Management at the New York ISC has addressed
    Resources at the New                    operational efficiency, but could further improve the
    York International                      efficiency of processing international mail by reducing
    Service Center                          workhours. Workhours could be reduced by cutting
                                            overtime, increasing machine utilization, improving
                                            productivity, improving and increasing supervision, and
                                            better scheduling of employees.

                                            Title 39, United States Code, Chapter 4, Section 403, states,
                                            “The Postal Service shall plan, develop, promote and
                                            provide adequate and efficient postal services. . . .” Postal
                                            Service management had addressed operational efficiency
                                            by adjusting their actual workhours to match the number of
                                            workhours planned for in the budget process. As a result,
                                            FY 2003 workhours were reduced by 15 percent from
                                            FY 2001 levels. However, Postal Service management had
                                            not evaluated operational efficiency by benchmarking
                                            operations against other ISCs, evaluating machine
                                            utilization, and analyzing trends. Consequently, the
                                            New York ISC was not operating as efficiently as possible.

    Overtime Workhours                      The mail volume (first handling pieces6) processed at the
    Were Excessive in                       New York ISC increased from 505 million pieces in FY 2002
    Relation to Workload                    to 515 million pieces in FY 2003, an increase of nearly
                                            2 percent. However, during the same period, overtime
                                            workhours used to process this mail increased from
                                            220,490 in FY 2002 to 298,178 in FY 2003, an increase of
                                            77,688 hours or 35 percent. The figure on the next page
                                            shows the increase in overtime hours for FY 2003 from the
                                            same period as last year.




6
    A first handling piece is a letter, flat, or parcel that receives its initial distribution in a Postal Service facility.




                                                                 5
Efficiency of the New York                                                         NO-AR-04-009
 International Service Center



                                FIGURE 5. Overtime Used at the New York ISC in FY 2003




                                In addition, 329 employees (22 percent of the total
                                number of mail processing employees) are projected to
                                earn in excess of $70,000 in FY 2004, and 54 of these
                                329 employees are projected to earn in excess of $100,000.
                                These employees have a base annual salary range from
                                $37,201 to $52,261. Because overtime was not properly
                                monitored or controlled, the New York ISC paid overtime for
                                processing the slight increase in mail volume. In addition,
                                the New York ISC is incurring higher labor costs because
                                these workhours are paid at a premium rate.

 New York International         The New York ISC has not achieved target productivity
 Service Center                 levels in the last two-year period for each of its mail
 Generally Did Not Meet         processing operations, with the exception of the flat sorter
 Productivity Targets           machine. Target productivity levels are based on total
                                pieces of mail that could be processed for each machine or
                                workhour of an operation. In FY 2003, the New York ISC
                                achieved 58 percent of its total targeted productivity levels.

                                For example, the delivery barcode sorting operation
                                achieved 53 percent of its national target level in FY 2002
                                and 45 percent in FY 2003. Appendix B shows the
                                percentage of target productivity levels achieved for each




                                              6
Efficiency of the New York                                                                        NO-AR-04-009
 International Service Center


                                      operation and the potential workhour savings to be obtained
                                      by achieving selected target productivity levels.

    New York ISC Was                  The New York ISC was generally less efficient than other
    Generally Less Efficient          ISCs. The following table depicts productivity levels using
    Than Other ISCs                   first handling pieces per workhour for the New York ISC
                                      compared to all other ISCs.

                                                               Table 1
                                            New York ISC Data on First Handling Pieces per
                                                  Workhour Versus All Other ISCs
                                                                                        FIRST HANDLING PIECES
                                                            FIRST HANDLING PIECES PER     PER WORKHOUR FOR
                                          FISCAL YEAR       WORKHOUR FOR NEW YORK            OTHER SITES
                                             2002                   173.81                     234.50
                                             2003                   183.21                     210.24


                                      For FYs 2002 and 2003, first handling pieces per workhour
                                      ratios for the New York ISC were 173.81 and 183.21
                                      compared to the other ISCs’ ratios7 of 234.50 and
                                      210.24, respectively. These ratios show that the New York
                                      ISC processed less mail per workhour than the other ISCs.
                                      Appendix C shows how the New York ISC compared to
                                      other ISCs with regard to first handling pieces per workhour
                                      for FY 2003.

    Inefficiencies in Mail            Employees in mail processing did not have adequate
    Operations Caused by              supervision. We observed many employees who were not
    Inadequate Supervision            promptly reporting to their assigned workstations during the
                                      start of their tour or left their assigned workstation before the
                                      conclusion of their tour. In addition, employees took
                                      extended breaks or sat idle while mail backed up. As a
                                      result, numerous mail backlogs from the prior tour caused
                                      bottlenecks for the subsequent tour. These bottlenecks often
                                      resulted in work stoppages, idle employees, and overtime.
                                      We observed unmanned workstations and a large volume of
                                      mail trays and sacks backlogged on conveyors from the
                                      previous tour and mail backing up on the parcel slides with
                                      no employees present to work it, although 139 mail handlers
                                      were on duty, including 7 full-time staff on overtime. (See
                                      Illustrations 1 through 7.)




7
    The other ISCs included Miami, Chicago, San Francisco, Los Angeles, and Dallas.




                                                        7
Efficiency of the New York                                                              NO-AR-04-009
 International Service Center



                                Illustration 1. Mail sacks backed up at the sack sorter slide
                                because of a lack of staff during turnover from Tour 2 to 3.
                                Ten operators were idle at keying stations. (April 2004, New York
                                ISC.)




                                Illustration 2. Letter trays backed up at a receiving station on the
                                second floor. (April 2004, New York ISC.)




                                                8
Efficiency of the New York                                                             NO-AR-04-009
 International Service Center



                                Illustration 3. Sack sorter backed up. Mail handlers left the area
                                temporarily. (May 2004, New York ISC.)




                                Illustration 4. Airline cargo containers waiting to be unloaded by
                                ISC employees. Three hours later, an employee from the next tour
                                began unloading mail. (April 2004, New York ISC.)




                                               9
Efficiency of the New York                                                               NO-AR-04-009
 International Service Center



                                Illustration 5. Outbound mail backed up on slides. We advised the
                                Manager on duty, who instructed employees to work the mail.
                                (May 2004, New York ISC.)




                                Illustration 6. Mail handlers sitting while mail waits on a slide.
                                (Note the feet in center of picture.) (May 2004, New York ISC.)




                                               10
Efficiency of the New York                                                               NO-AR-04-009
 International Service Center



                                Illustration 7. Inbound tray line with a letter tray jammed into
                                rollers, stopping the conveyor and backing up mail bins.
                                (April 2004, New York ISC.)




                                Supervisor hours as a percentage of total workhours were
                                less than the average for other ISCs. Supervisor hours for
                                FY 2003 were 5.8 percent for the other ISCs while the
                                New York ISC used 5.5 percent. The New York ISC could
                                increase supervisory hours by 6,000 and still be within the
                                average usage of supervisory hours. This comparison and
                                our observations showed that efficiency gains could be
                                obtained through improved and increased supervision.
                                Appendix D shows this comparison.

 Better Employee                Through analysis and observation, we determined that
 Scheduling Could               better scheduling of mail processing employees could
 Improve Efficiency             improve efficiency. We compared mail volume with
                                employee workhours and computed volume per work ratios
                                for each hour of operation for the registry and Express Mail
                                operations, as well as for overall mail processing operations.
                                Efficiencies could be gained by reducing workhours in the
                                registry and express section from 10:00 p.m. to 5:00 a.m.,
                                and improved scheduling throughout the entire operation
                                could increase workhour efficiencies. (See Appendix E.)




                                               11
Efficiency of the New York                                                       NO-AR-04-009
 International Service Center


 Recommendations                We recommend the Manager, New York ISC:

                                   1. Reduce mail-processing workhours by 320,000; this
                                      will result in a cost savings of approximately
                                      $98 million over a ten-year period.

                                   2. Periodically evaluate operating efficiency and staffing
                                      at the New York ISC to determine whether further
                                      workhour adjustments are necessary based on
                                      workload.

 Management’s                   Management agreed with our finding, recommendations,
 Comments                       and associated monetary impact. The Manager, New York
                                ISC, will continue to reduce workhours at the ISC through
                                the end of FY 2009. Postal Service management also will
                                monitor the efficiency of operations on a daily basis, and
                                arrange an independent review semiannually to ensure
                                savings are captured.

 Evaluation of                  Management’s comments reflect that the Manager,
 Management’s                   New York ISC, has been very proactive and aggressive with
 Comments                       implementing the recommendations. The New York ISC
                                management has a plan to meet 90 percent of its
                                Breakthrough Productivity Index goal. They are also
                                committed to continually improving their operations as made
                                evident by their participation and cooperation with the joint
                                effort process. Management’s actions, taken or planned,
                                should correct the issues identified in the finding.




                                             12
Efficiency of the New York                                                  NO-AR-04-009
 International Service Center



                                     APPENDIX A

                                PRIOR AUDIT COVERAGE

Work Performed by Business Mail Entry Employees in the Colorado/Wyoming
Performance Cluster (Report Number CQ-AR-02-001, September 26, 2002), reported
that many of the business mail entry employees at the Denver Bulk Mail Center and
Denver General Mail Facility were not needed to accept business mailings.
Management could save an estimated $1 million annually if the number of employees
was reduced. We recommended that management oversee the consolidation of
business mail entry operations and reduce staff as planned, and reevaluate staffing to
determine whether further staff reductions were necessary. Management agreed, and
the actions taken and planned were responsive to the issues identified in the report.

Work Performed by Business Mail Entry Employees in the Seattle, Minneapolis, and
Des Moines Bulk Mail Centers (Report Number CQ-AR-03-001, March 28, 2003),
reported that these facilities should reduce the workhours necessary to accept business
mailings. Management could save an estimated $588,730 through the end of FY 2005
when its planned workhour reductions are fully implemented. We recommended that
Senior Plant Managers at the Seattle, Minneapolis, and Des Moines Bulk Mail Centers
reduce hours, reevaluate staffing needs periodically, and ensure that appropriately
trained personnel perform acceptance functions. Management agreed, and the actions
taken and planned were responsive to the issues identified in the report.

Efficiency of Work Performed by Business Mail Entry Clerks Within the Los Angeles
District (Report Number AO-AR-03-001, July 31, 2003), reported that the district should
reduce the workhours necessary to accept business mailings. During the audit, Postal
Service management agreed to aggressively reduce business mail entry workhours by
28,800 hours by the end of FY 2005. This reduction in workhours could produce an
estimated cost avoidance of approximately $9.26 million over ten years. We
recommended that the Manager, Los Angeles District, reduce hours and reevaluate
staffing needs periodically. Management agreed with our recommendations and has
initiatives in progress addressing the issues identified in the report.

Efficiency of Work Performed by Business Mail Entry Clerks Within the San Francisco
District (Report Number AO-AR-03-002, September 25, 2003), reported that the district
should reduce the workhours necessary to accept business mailings in the
San Francisco Business Mail Entry Unit. During the audit, Postal Service management
agreed to aggressively reduce business mail entry workhours by 18,000 hours by the
end of FY 2006. This reduction in workhours could produce an estimated cost
avoidance of approximately $6.9 million over ten years. We recommended that the
Manager, San Francisco District, reduce hours as planned and reevaluate staffing




                                         13
Efficiency of the New York                                                   NO-AR-04-009
 International Service Center


needs periodically. Management agreed, and the actions taken and planned were
responsive to the issues identified in the report.

Efficiency of Work Performed by Business Mail Entry Clerks at the Southern Maryland
Business Mail Entry Unit (Report Number NO-AR-04-001, December 24, 2003),
reported that the district should reduce the workhours necessary to accept business
mailings in the Southern Maryland Business Mail Entry Unit. During the audit, Postal
Service management agreed to aggressively reduce business mail entry workhours by
20,240 hours by the end of FY 2006. This reduction in workhours could produce an
estimated cost avoidance of approximately $8.4 million over ten years. We
recommended that the Manager, Capital District, reduce hours as planned and
reevaluate staffing needs periodically. Management agreed, and the actions taken and
planned were responsive to the issues identified in the report.

Efficiency of Work Performed by Business Mail Entry Clerks in the Columbia, Maryland,
Business Mail Entry Unit (Report Number NO-AR-04-002, December 26, 2003),
reported that the district should reduce the workhours necessary to accept business
mailings in the Columbia, Maryland, Business Mail Entry Unit. During the audit, Postal
Service management agreed to reduce business mail entry workhours by 3,960 hours
by the end of FY 2005. This reduction in workhours could produce an estimated cost
avoidance of approximately $1.4 million over ten years. We recommended that the
Manager, Baltimore District, reduce hours as planned and periodically reevaluate
staffing. Management agreed, and the actions taken and planned were responsive to
the issues identified in the report.

Efficiency of Work Performed by Business Mail Entry Clerks in the Springfield, Virginia,
Business Mail Entry Unit (Report Number NO-AR-04-004, February 9, 2004), reported
that the district should reduce the workhours necessary to accept business mailings in
the Springfield, Virginia, Business Mail Entry Unit. During the audit, Postal Service
management agreed to reduce business mail entry workhours by 2,775 hours by the
end of FY 2006. This reduction in workhours could produce an estimated cost
avoidance of $969,893 over ten years. We recommended that the Manager, Northern
Virginia District, reduce hours as planned and periodically reevaluate staffing.
Management agreed, and the actions taken and planned were responsive to the issues
identified in the report.

Efficiency of the San Francisco International Service Center and the General Services
Administration Facility (Report Number NO-AR-04-006, March 31, 2004), reported that
the district should reduce the workhours necessary to process mail at the San Francisco
ISC, transfer mail from the General Services Administration (GSA) facility to the
San Francisco ISC, and close the GSA facility. During the audit, Postal Service
management agreed to reduce mail processing workhours at the San Francisco ISC by
120,000 hours by the end of FY 2007. This reduction in workhours could produce an
estimated cost avoidance of approximately $39 million over ten years. In addition,
management agreed to close the GSA facility, which could produce a cost avoidance of




                                         14
Efficiency of the New York                                                    NO-AR-04-009
 International Service Center


approximately $5.2 million over ten years. We recommended that the Manager,
San Francisco District, reduce hours as planned, close the GSA facility, and periodically
reevaluate staffing. Management agreed, and the actions taken and planned were
responsive to the issues identified in the report.

Efficiency of the Oakland International Service Facility and the Regatta Facility (Report
Number NO-AR-04-007, March 31, 2004), reported that the district should reduce the
workhours necessary to process mail at the Oakland International Service Facility,
transfer mail from the Regatta Facility, and close the Regatta Facility. During the audit,
Postal Service management agreed to reduce mail processing workhours at the
Oakland ISC by 25,000 hours by the end of FY 2006. This reduction in workhours could
produce an estimated cost avoidance of approximately $5.4 million over ten years. In
addition, management agreed to close Building 512 rather than the Regatta Facility due
to an early termination of the Building 512 lease. The closure of Building 512 could
produce a cost avoidance of approximately $3.4 million. We recommended that the
Manager, Oakland District, reduce hours as planned, close Building 512, and
periodically reevaluate staffing. Management agreed, and the actions taken and
planned were responsive to the issues identified in the report.




                                          15
              Efficiency of the New York International                                                   NO-AR-04-009
               Service Center


                                                                           APPENDIX B

                 TARGETED PRODUCTIVITY LEVELS ACHIEVED BY EACH TYPE OF MAIL PROCESSING
               OPERATION AND POTENTIAL HOUR SAVINGS BASED ON PERCENTAGE OF ACHIEVEMENT
                                              TO TARGET
                                           FYS 2002 AND 2003
                                      WORKHOUR PRODUCTIVITY                             ACHIEVED                ON TARGET ACHIEVED
                                           2002            2003           Target        2002        2003     100%        90%         80%          70%
Flat Sorter Machine 1000                            639             380          600       106%        63%      6,921       5,596        3,940        1,810
Automated Flat Sorter Machine 100                 1,897           2,201        2,100         90%      105%     (1,931)     (6,590)     (12,414)     (19,902)
Small Parcel Bundle Sorter                          297             235          300         99%       78%     58,500      35,211        6,100      (31,329)
Delivery Barcode Sorter                           4,792           4,119        9,082         53%       45%     46,590      42,294       36,924       30,020
Multi Line Optical Character Reader                3,901          4,184        6,400         61%       65%     28,171      22,261       14,873        5,375
Mail Processing Barcode Sorter                       N/A          3,314        8,086          N/A      41%     10,139       9,356        8,378        7,120
Advance Facer Canceller Sorter                       N/A          4,144       20,000          N/A      21%     18,807      18,261       17,578       16,700
Manual Letters                                      316             228          445         71%       51%    102,434      90,500       75,583       56,404
Sack Sorter                                          N/A            105          316          N/A      33%     29,935      28,288       26,228       23,581

Totals                                         11,841         18,805           5,259        80%       59%     299,566    245,177      177,190       89,779

Manual letters productivity based on total pieces fed




              Totals for operations were determined by total pieces on each of the mail processing operations divided by the total
              workhours used on each of the mail processing operations.

              Source: Management Operating Data System and Breakthrough Productivity Index Targets.




                                                                                   16
Efficiency of the New York International                                               NO-AR-04-009
 Service Center


                                           APPENDIX C

       FY 2003 FIRST HANDLING PIECES PER TOTAL WORKHOURS




   SAN FRANCISCO                                           138.06




     LOS ANGELES                                                              201.50




        NEW YORK                                                        183.21




          CHICAGO                                                                       245.07




             MIAMI                                                                               277.32




           DALLAS                                                                                 279.73




                     0             50        100            150             200         250           300

                                                    FIRST HANDLING PIECES




Note: We computed the ratios by dividing the first handling pieces volume and total
handling pieces volume by the total workhours for FY 2003.
Source: Web Enterprise Information System.




                                               17
Efficiency of the New York International                                                                      NO-AR-04-009
 Service Center


                                                    APPENDIX D

 SUPERVISOR HOURS AS A PERCENTAGE OF TOTAL WORKHOURS
                         FY 2003
                  (Shown in Percentages)



                                            5.1
                                                                                          6.9




                     5.5




                                                                                                        8.7



                           5.0




                                                                   6.2




                                 Chicago   Dallas    Los Angeles     Miami   New York   San Francisco




The average for all sites is 5.8 percent. The percentage used by the New York ISC was
5.5 percent.




                                                          18
Efficiency of the New York International                                                     NO-AR-04-009
 Service Center


                                                              APPENDIX E

VOLUME PER HOUR OF OPERATION BASED ON MAIL ARRIVAL AND
 WORKHOURS FOR THE REGISTRY AND EXPRESS OPERATIONS


Opportunities for workhour savings exist from 22:00 to 05:00 based on low productivity,
as shown by volume per workhour for these time periods.


                                  VOLUME PER WORKHOUR EXPRESS MAIL SECTION

                               250.00
             PIECES PER HOUR




                               200.00

                               150.00

                               100.00

                                50.00

                                 0.00
                                     2400 0300 0600 0900 1200 1500 1800 2100
                                                                 TIME (Military)




                                                      VOLUME PER WORKHOUR-REGISTRY SECTION


                                                    90.00
                                  PIECES PER HOUR




                                                    80.00
                                                    70.00
                                                    60.00
                                                    50.00
                                                    40.00
                                                    30.00
                                                    20.00
                                                    10.00
                                                     0.00
                                                            24
                                                            20
                                                            40
                                                            60
                                                            80
                                                            10
                                                            12
                                                            14
                                                            16
                                                            18
                                                            20
                                                            22
                                                              00
                                                              0
                                                              0
                                                              0
                                                              0
                                                              00
                                                              00
                                                              00
                                                              00
                                                              00
                                                              00
                                                              00




                                                                       TIME (Military)


                                                                  19
Efficiency of the New York International                                                           NO-AR-04-009
 Service Center


                                              APPENDIX F

                         COST AVOIDANCE AT THE NEW YORK
                          INTERNATIONAL SERVICE CENTER
                            (FUNDS PUT TO BETTER USE)


                                                           Undiscounted Total
                                           Total                                         Discounted Total
                                                            Saving or (Cost)
                                        Workhour                                          Saving or (Cost)
                                                              (Ten Year –
     EMPLOYEE CATEGORY                  Reduction                                      (Ten Year – 5 Percent
                                                              2.7 Percent
                                        (Increase)                                        Discount Rate)
                                                            Escalation Rate)

    Supervisor Workhour
    Increase (EAS-17). Yearly              (6,000)            ($3,103,324)                   ($2,149,907)
    reduction of 1,200 hours
    Mail Processing Clerks
    (PS 5). Yearly reduction of            326,000            $145,076,439                  $100,505,441
    65,200 hours

    Totals (ten fiscal years)              320,0008           $141,973,115                   $98,355,534

NOTES

    •   The total workhour reduction of 320,000 is based on increasing supervisor hours
        by 6,000 and decreasing mail processing clerk workhours by 326,000.
    •   Workhour reductions are based on Postal Service management’s plan to reduce
        320,000 workhours over a five-year period from FYs 2005 to 2009, based on
        FY 2003 workhour usage of 3,453,493.
    •   We calculated cost avoidance using the hour savings multiplied by the escalated
        labor rate over a ten-year period.
    •   We calculated the net present value using the discount rate of 5 percent over a
        ten-year period. The yearly escalation factor is 2.7 percent.
    •   Labor rates were based on the Postal Service’s 2003 published rates for a
        PS-05 Mail Processing Clerk and Executive and Administrative Schedule
        (EAS) -17 Supervisor.

FUNDS PUT TO BETTER USE -- Funds that can be used more efficiently by
implementing recommended actions.




8
 This workhour reduction is based on management’s aggressive plan of achieving 90 percent target productivity goal
(Breakthrough Productivity Index).



                                                      20
Efficiency of the New York International               NO-AR-04-009
 Service Center


                   APPENDIX G. MANAGEMENT’S COMMENTS




                                           21
Efficiency of the New York International        NO-AR-04-009
 Service Center




                                           22
